J

NO. 20-5046
IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM, 2020

IN RE: DANIEL H. JONES,
Petitioner

PETITION FOR EXTRAORDINARY WRIT OF PROHIBITION
AND/OR WRIT OF MANDAMUS TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
AT CINCINNATI, OHIO
No. 18-5601
TO; Scott S. Harris, Clerk;
NOTIFICATION AND PROOF OF SERVICE
I, Daniel H. Jones, petitioner, pro se, do swear or declare that on this date
October 21, 2020, as required by Supreme Court Rule 29, that I have served the
enclosed Application for Single Justice’s Review - with Appendices - on each
party to the above proceeding, or the party’s counsel, and on every other person
required to be served by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first class postage prepaid, or by delivery to a third party commercial carrier
for delivery within 3 calendar days, who will be as follows;

Mr. Scott S. Harris, Clerk;
United States Supreme Court
1 First Street, N.E
Washington, D.C. 20543.
I declare under penalty ofpprj.iury that the foregoing is true and correct.
and executed on this 21st. dav^of.October 2f02

Z

Dani^L&<fones, Petitioner, pro se

